                                SOCIAL SECURITY
MEMORANDUM

Date:   September 10, 2002                                              Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Reviewof Internal Controls for the Supplemental Security Income Immediate Payment
        Process (A-05-00-10045)


        The attached final report presents the results of our audit. Our objective was to
        evaluate the adequacy of internal controls over the Social Security Administration’s
        process for issuing and offsetting Supplemental Security Income immediate payments.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                               James G. Huse, Jr.

        Attachment
            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  REVIEW OF INTERNAL CONTROLS
      FOR THE SUPPLEMENTAL
   SECURITY INCOME IMMEDIATE
        PAYMENT PROCESS

  September 2002    A-05-00-10045




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and investigations
    relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE
Our objective was to evaluate the adequacy of the Social Security Administration's
(SSA) internal controls over Supplemental Security Income (SSI) immediate payments
(IP) and to determine whether payments are recorded on the Supplemental Security
Records (SSR) and subsequently offset.

BACKGROUND
SSI recipients who claim delay, interruption or nonreceipt of their monthly SSI payments
can receive IPs based on the existence of a financial emergency. Claimants with
emergencies who have not started receiving monthly benefits may receive emergency
advance payments (EAP). As a result, EAPs are not subject to the 30-day interval
requirement applied to IPs and SSA uses a different methodology for establishing the
maximum payment amount. If a field office (FO) confirms a financial emergency exists
that is an immediate threat to a recipient’s health or safety, the FO will issue an IP. The
IP is issued instead of requiring the recipient to wait 7 to 10 days to process a
replacement check through the Treasury Department. IPs are issued if: (1) the
recipient is eligible for SSI benefits; (2) no other IP was made to the recipient within the
past 30 days; and (3) a financial emergency exists.

If the above conditions are met, a claims representative (CR) will prepare a SSI
Payment Authorization Voucher. A supervisor will review the voucher, along with
supporting documentation, and authorize the payment. The voucher is then presented
to the cashier who types a check from the third-party payment system (TPPS) and the
check is issued to the recipient. The cashier records the IP on the TPPS and later
transmits to Headquarters a daily record of TPPS checks issued by the FO. The CR
records the IP on the SSR after the recipient receives it, and the cashier maintains a
copy of the updated SSR. However, the SSR system also generates an automated
payment later, resulting in excess payments. If the IP is properly input, the SSR system
will automatically offset excess amounts paid from subsequent monthly payments. FOs
are required to monitor TPPS operations by performing monthly accountability reviews
and annual managers’ audits.

RESULTS OF REVIEW
SSA needs to improve its controls for issuing and recovering IPs. SSA guidelines
provide that: (1) no more than one IP may be made to a recipient within a 30-day
period; (2) IPs cannot exceed a designated ceiling amount; and (3) once issued, the IPs
must be recorded on the SSR. We selected five FOs that issued large amounts of IPs
that did not satisfy the above guidelines during the 2-year audit period ended
December 31, 1999. We then randomly sampled 30 noncompliant IPs from each of the
5 offices for review. Within our sampled results, we found documented approvals for



Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)          i
the IPs and noted no significant adverse impact from payments issued either in under
30 days to the same recipient or above the ceiling amount. However, 19 of the sampled
IPs involved excess payments that were not collected. The uncollected amount for the
19 IPs totaled $6,400, or 11.1 percent of the total amount of IPs in the sample.

CONCLUSIONS AND RECOMMENDATIONS
We concluded that SSA needs to improve its controls for issuing and recovering SSI
IPs. A lack of integration and compensating controls permit human error to go
undetected and IPs to remain unrecovered. We are recommending system
enhancements and procedural improvements to assist FO staff in monitoring and
collecting IPs. To ensure that the system is used appropriately, we recommend that
SSA:

·   Activate two codes on the SSR to separately identify and account for SSI IPs and
    EAPs.

·   Integrate the TPPS with the SSR so IPs can automatically be added to both systems
    based on one input. In the interim:

    (1)   Emphasize the need to verify that IPs are promptly recorded on the SSR and
          recovery actions are taken as part of FO monthly TPPS accountability reports
          and managers’ annual audits.

    (2)   Perform computerized analyses as an additional control to identify IPs on
          theTPPS data base for which no payments were established on the SSR and
          send listings to FOs to resolve the discrepancies.

·   Evaluate existing policy to determine if revisions should be made to allow for waivers
    of the 30-day interval requirement for disbursing IPs.

AGENCY COMMENTS
SSA generally agreed with our recommendations. Regarding the interim
recommendation to perform computerized analyses to identify IPs on the SSR, SSA
believes recently implemented procedures provide adequate controls. (See Appendix C
for SSA’s comments.)

OIG RESPONSE
We acknowledge the Agency’s responsiveness and will continue to monitor the
effectiveness of its corrective action.




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)        ii
                                                         Table of Contents
                                                                                                              Page



INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

Increasing Significance of Immediate Payments.....................................................4

Analysis of Immediate Payments Population .........................................................5

Onsite Field Office Reviews ....................................................................................5

SSA Systems Enhancement and Better Controls Are Needed ..............................6

CONCLUSIONS AND RECOMMENDATIONS.......................................................8

APPENDICES

APPENDIX A – Statistical Analyses and Methodology

APPENDIX B – Field Offices with Highest Amount of Noncompliant Immediate
             Payments

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)
                                                                   Acronyms

 CR                Claims Representative
 EAP               Emergency Advance Payment
 FO                Field Office
 IP                Immediate Payment
 POMS              Program Operations Manual System
 SSA               Social Security Administration
 SSI               Supplemental Security Income
 SSR               Supplemental Security Record
 TPPS              Third-Party Payment System




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)
                                                             Introduction
OBJECTIVE
Our objective was to evaluate the adequacy of the Social Security Administration's
(SSA) internal controls over Supplemental Security Income (SSI) immediate payments
(IP) and to determine whether payments are recorded on the Supplemental Security
Records (SSR) and subsequently offset.

BACKGROUND
The SSI program provides a minimum level of income to financially needy individuals
who are aged, blind or disabled. The program allows immediate payments (IP) to be
issued at local field offices (FO) for SSI recipients who are in financial emergencies.
An emergency advance payment (EAP) is used to provide funds for financial
emergencies that occur before a claimant has started receiving monthly SSI benefits.
As a result, EAPs are not subject to the 30-day interval requirement applied to IPs and
SSA uses a different methodology for establishing the maximum payment amount. SSI
recipients who claim the delay, interruption or nonreceipt of monthly benefit checks can
have the missing funds replaced by an IP. FOs will issue an IP based on an immediate
financial emergency rather than require the recipient to wait 7 to 10 days for the
Treasury Department to process a replacement check.

An IP can be issued to a SSI recipient who has an established SSR and is receiving
monthly benefits. SSI recipients can receive one IP for an amount not to exceed
$999 within a 30-day period. The ceiling was raised from $400 on August 23, 1999.1
The IP represents an advance of an SSI payment due to the recipient. However, the
SSR system will generate an automated payment later, resulting in an excess amount
being paid to the recipient. FOs must record IPs in the SSR system to ensure the
payments are accounted for and recipients’ excess payments are offset from future
benefit payments.

If an IP is to be issued, a claims representative (CR) will prepare a SSI Payment
Authorization Voucher. A supervisor will review the voucher, along with supporting
documentation, and authorize the payment. The voucher is then presented to the
cashier who types a check from the third-party payment system (TPPS) and the check
is issued to the recipient. The cashier records the IP on the TPPS and later transmits to
Headquarters a daily record of TPPS checks issued by the FO. The CR records the IP
on the SSR after the recipient receives it and the cashier maintains a copy of the
updated SSR. The SSR system also processes an automated SSI payment later,
requiring that the excess amount be offset from subsequent SSI payments due the
recipient.


1
    POMS section SI02004.100.B.1, 5 and 6.



Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)       1
FO managers are responsible for ensuring that the TPPS is functioning properly to
support the offices’ mission, provide adequate controls, and account for all payments.
This responsibility is satisfied by two types of onsite assessments. First, managers are
responsible for monthly accountability reviews to verify that TPPS checks are accounted
for and supporting documentation exists. Second, managers are responsible for annual
TPPS audits to ensure that IPs are authorized and recorded timely on both financial and
programmatic records.2 In addition, regional security officers provide audit coverage of
the TPPS as part of periodic Onsite Security Control and Audit Reviews.

SCOPE AND METHODOLOGY
We obtained 144,531 SSI IPs recorded on the TPPS between January 1, 1998 and
December 31, 1999. These IPs totaled $55.2 million. These numbers were overstated
because the TPPS included erroneous IPs that SSA voided. We analyzed the IPs to
determine whether: (1) the payments matched IPs recorded on the SSR system; (2)
more than one payment was made to any recipient within a 30-day period; and
(3) payments were issued in excess of the maximum payment amount.

We identified 25,133 IPs that did not match SSR records, were multiple payments to the
same recipient within a 30-day period, or were payments in excess of the dollar limit.3
The noncompliant IPs were sorted by FO to identify offices with the highest amount of
payments. We selected five offices to visit from three SSA regions. The 3 regions
included all 15 FOs with the highest amount of noncompliant IPs. We selected 30 IPs
from each of the 5 offices using a stratified random sample. The number of sample
items in each stratum was based on the relative number of IPs in each of the three
categories discussed above. Details of the data analyses are provided in Appendix A.

To complete our review, we:

·     reviewed applicable Program Operations Manual System (POMS) sections;

·     interviewed SSA staff at the Great Lakes Program Service Center, five FOs and
      SSA Headquarters; and

·     reviewed IP documentation and SSI system queries to determine whether the
      payments were made in accordance with SSA procedures, and if the payments were
      collected.




2
    SSA Administrative Instructions Manual System, Financial Management, Chapter 3, Instruction No. 5.
3
 The 25,133 IPs is overstated because the same payment may appear in two categories. We excluded
voided IPs in this analysis. However, the analyses to identify 15 FOs with the highest amounts of
noncompliant IPs and to select sample IPs included voided payments.



Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)                        2
We performed audit work in Chicago, Illinois; Baltimore, Maryland; Albuquerque,
New Mexico; Las Vegas, Nevada; San Francisco, California; Sacramento, California;
and Colorado Springs, Colorado. Our fieldwork was conducted from June 2000 through
June 2001. The audited issue was within the Office of the Deputy Commissioner for
Operations. We conducted our audit in accordance with generally accepted
government auditing standards. We did not rely solely on computer processed data
from the SSR to perform our analysis. Instead, we used TPPS disbursement records to
identify IPs and examined FO documentation based on a statistical sample to form our
conclusions. Besides reviewing written procedures, we interviewed FO staff to obtain
detailed procedures for the issuing of and accounting for IPs.




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)   3
                                                Results of Review
We found that, despite significant increases in the numbers of IPs issued in recent
years, SSA has not improved its controls over the process. A previous audit issued in
February 1993 noted insufficient controls and system limitations, resulting in SSA not
recovering 10.3 percent of IPs included in a sample analysis.4 During our audit period,
we identified 4,059 IPs issued prior to the required 30-day interval for payments to the
same individual and 625 IPs that were issued in an amount above the allowable
maximum dollar amount.

More importantly, we were unable to match 20,449 IPs totaling $8,025,805 with the
Supplemental Security Record (SSR) of the recipients. This lack of controls and
accountability can result in recipients receiving excessive numbers of IPs and failing to
make repayments.

We reviewed a sample of 150 IPs issued at 5 FOs that issued a high volume of
payments during the audit period. 5 The sample was taken from IPs that we identified
as: (1) not matching the SSR, (2) within a 30-day interval, or (3) above the dollar
ceiling. The sampled offices adequately documented the bases for issuing the IPs. The
IPs issued under the 30-day interval were generally within 3 days of the requirement
and were recovered. We also noted few IPs issued above the $999 ceiling. However,
we determined that 19 of the sampled IPs were not recovered. The loss to SSA was
$6,400, or 11.1 percent of the total sampled payments. It is important that FO staff
input IPs onto the SSR to enable the system to recover the payments. We attribute the
noncompliant and nonrecovered IPs to the lack of both automated and manual
processing controls.

INCREASING SIGNIFICANCE OF IMMEDIATE PAYMENTS
We believe the need to improve controls over the IP process has increased as the result
of significant increases in the volume of IPs. SSA issued 71,778 IPs for the Fiscal Year
ended September 30, 1999. In comparison, the audit report referenced above
disclosed that SSA issued only 20,389 EAPs and IPs during the 1-year period ended
August 31, 1991. We found that from 1995 to 1999 SSA increased the number of IPs
issued by 46.9 percent. This represents an increase of $9,255,711 (or 53.3 percent) in
the amount of IPs issued. These increases are shown in the following table.




4
 HHS/OIG, “Audit of Social Security Administration Procedures for Processing Immediate Payments and
Emergency Advance Payments (A-05-91-00094),” issued February 10, 1993.
5
    The sample was reduced to 149 payments because one IP was included in two strata.



Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)                 4
                                   Immediate Payments
         Fiscal Year                  Number of IPs                     Amount of IPs
            1995                         48,846                         $17,349,568
            1996                         51,743                          18,533,081
            1997                         51,591                          18,497,904
            1998                         63,782                          23,021,954
            1999                         71,778                          26,605,279


ANALYSIS OF IMMEDIATE PAYMENTS POPULATION

We obtained 144,531 payments from the TPPS data base. By matching IPs with the
SSR data base and deleting voided IPs, we identified 20,449 payments from the TPPS
that did not match IP data on the recipients’ SSR. The unmatched IPs totaled
$8,025,805. However, the accounting for cumulative IPs issued to the same recipients
on the SSR sometimes prevented us from matching the IPs from the TPPS data base
with IP data on the SSR. The FO staff is responsible for recording IPs on the
appropriate SSR records because there is no automated interface with the SSR to
record those payments on the recipients’ SSI records. We determined that there is no
reconciliation between IPs recorded on the TPPS data base (cash disbursements) with
the SSR (SSI program records).

We used the population of 144,531 IPs to test overall compliance with the requirements
that payments not exceed a dollar ceiling (currently $999) and not be issued to the
same recipient at an interval of less than 30 days. There were 625 IPs totaling
$372,215 issued during the 2-year audit period that exceeded the dollar ceiling.
However, we identified only 25 excessive IPs issued during the period August through
December 1999 and 17 of those payments were $1 or less above the ceiling. There
were also 4,059 IPs totaling $1,442,230 that SSA issued less than 30 days after making
another IP to the same recipient.

We found that 15 offices accounted for 4,696 IPs totaling $1,872,296 that were
unmatched with the SSR, above the dollar ceiling, or issued less than 30 days apart to
the same recipient. This represents about18.7 percent of the total IPs issued during the
2-year audit period that did not satisfy these requirements. Detailed information for the
15 FOs is shown in Appendix B. We found that all of these offices were located in three
SSA regions located in the western and southwestern United States.

ONSITE FIELD OFFICE REVIEWS
We selected five FOs for on-site reviews. These offices were selected from the
15 offices identified with the largest amount of IPs either unmatched with the SSR or not
in compliance with the dollar ceiling or frequency of payment requirements. We
selected at least 1 FO from each of the 3 SSA regions where the 15 offices are located.
The reviews consisted of interviewing staff to determine how IPs are processed and
reviewing available documentation for 30 randomly selected noncompliant IPs from


Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)       5
each office. The numbers of cases selected for each category at the five offices is
shown in Appendix A.

In general, the selected offices provided documentation of the justification and evidence
of supervisory approval for the sampled IPs. We did not perform additional tests to
determine the validity of the evidence. Although detailed verification of financial
emergencies was often missing, we found no basis to question the financial need. We
also found that, while a number of the payments were in noncompliance, the violations
were insignificant. For example, the 39 multiple IPs to the same recipients were often
issued within 3 days of the 30-day required interval. Nonetheless, current policy does
not allow for these exceptions to the requirement.

We sampled 109 IPs that we were unable to match with the recipients’ SSR. There
were 6 voided IPs, resulting in 103 actual payments. Although we noted a lack of
accountability on the SSR, the basis for the payments was documented and they
received supervisory approval.

We reviewed two sample payments involving IPs above the dollar ceiling. The
payments were for $650 and $624. Neither of these payments was otherwise
questionable as the financial emergencies were documented and the IPs were
approved. We also found that the number of IPs exceeding the maximum payment
amount became insignificant after the ceiling was raised from $400 to $999 in
August 1999.

However, we identified 19 IPs totaling $6,400 that SSA did not recover. The 19 IPs
consisted of 17 payments that did not match with the SSR and 2 payments that were
issued less than 30 days after previous payments to the same recipients. The amount
that was not recovered totaled $6,400, or 11.1 percent of the total sampled dollars. This
occurred because of systems limitations and inadequate compensating controls.

SSA SYSTEMS ENHANCEMENT AND BETTER CONTROLS ARE
NEEDED
There is no automated interface to allow a FO to use one input to record IP data on both
the TPPS data base used to record disbursements and the SSR used to account for
SSI payments and eligibility. Moreover, SSA has not established compensating
controls for FOs to ensure that IPs are properly recorded and recovered from the
recipients.

The prior audit report also noted the lack of an interface between TPPS payments and
the SSR.6 At that time, SSA indicated that it was developing systems requirements for
an integrated front-end process that would allow one input to update both the TPPS and
SSR systems. Despite the significant increases in the volume of IPs since the prior
report was issued in 1993, SSA has not implemented this systems enhancement. SSA

6
    ibid.



Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)       6
also has not implemented the recommendation in the prior report that the SSR should
distinguish between IPs and EAPs.

Pending implementation of an automated interface between TPPS payments and the
SSR, interim controls are needed to improve SSA’s accounting for IPs. We believe that
two suggestions made in the prior audit report are still relevant and would improve the
IP process.

·      SSA should periodically implement a computerized match between the TPPS
       records and the SSR to identify IPs that do not match with IPs recorded on the
       TPPS. Those IPs that are unmatched should be listed in an exception report that is
       issued to the appropriate FOs for corrective actions. The prior report noted that SSA
       implemented the matching process once, but made no use of the resulting
       information.7

·      SSA should require FOs to conduct supervisory reviews of IPs to ensure that the
       payments are recorded on the SSR and that recovery actions are taken.




7
    ibid.


Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)          7
                                            Conclusions and
                                           Recommendations
We concluded that SSA needs to improve its controls for issuing and recovering
SSI IPs. A lack of system integration and compensating controls permit human error to
go undetected and IPs to remain unrecovered. We are recommending systems
enhancements and procedural improvements to assist FO staff in monitoring and
collecting IPs. To ensure that the system is used appropriately, we recommend that
SSA:

1. Activate two codes on the SSR to separately identify and account for SSI IPs and
   EAPs.

2. Integrate the TPPS with the SSR so IPs can automatically be added to both systems
   based on one input. In the interim:

   ·   Emphasize the need to verify that IPs are promptly recorded on the SSR and
       recovery actions are taken as part of FO monthly TPPS accountability reports
       and managers’ annual audits.

   ·   Perform computerized analyses as an additional control to identify IPs on the
       TPPS data base for which no payments were established on the SSR and send
       listings to FOs to resolve the discrepancies.

3. Evaluate existing policy to determine if revisions should be made to allow for waivers
   of the 30-day interval requirement for disbursing IPs.

AGENCY COMMENTS
SSA agreed with our recommendations and provided timeframes for implementation
actions taken and planned. With respect to the recommendation for performing
computerized analyses, SSA agrees with the intent of the recommendation, but not the
proposed action. Instead, SSA believes recent changes to TPPS provide appropriate
control for the interim period.

OIG RESPONSE
We acknowledge SSA’s responsiveness to the recommendations we made. The
Agency’s proposed strategy for addressing our recommendations appears reasonable.
We will continue to follow-up on the status of corrective action to determine its
effectiveness in improving the monitoring and collection of immediate payments.




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)       8
                                   Appendices




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)
                                                                           Appendix A

Statistical Analyses and Methodology
We obtained a data base from the third-party payment system (TPPS) of Immediate
Payments (IP) issued from January 1, 1998 through December 31, 1999. During this
2-year review period, there were 144,531 IPs issued totaling $55,218,164. The TPPSs
are the source cash disbursement records for IPs.

We used the data base for three analyses:

1. We matched the IP data base with the Supplemental Security Record file (SSR) to
   identify IPs from the TPPS that did not match the SSR. We found 20,449 payments
   totaling $8,025,805 that we were not able to match with the SSR.

2. We identified 4,059 payments totaling $1,442,230 that were issued within 30 days of
   a prior IP to the same recipient.

3. We identified 625 IPs totaling $372,215 that were issued in an amount above the
   allowable limit.

We sorted the results of these three analyses by FOs to identify those offices with the
highest amounts of IPs. See Attachment B for the results of this ranking. We selected
5 of the 15 offices with the highest amounts of payments. We ensured geographic
dispersion by including at least one office from each of the three regions where the
offices were located. All of the 15 offices were located in the western and southwestern
United States.

We then randomly selected 30 sample IPs from each of the 5 selected offices. The
sampled items were selected from the three categories of noncompliant IPs identified by
our analyses as discussed above. The number of sampled items in each category was
based on the relative number of IPs by category. The selections are shown in the
following table.




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)    A-1
                                Table 1 - Sample Selections


                        Total                        Number of Transactions
                        IPs
                        Under        Unmatched             Multiple            High Dollar
      Location          Review      Total Sample        Total Sample          Total Sample
 Sacramento, CA
 (Downtown)               596        414        21       179         9          3     0
 San Francisco, CA
 (Civic Center)           575        367        19       188        10         20     1
 Colorado Springs,
 CO                       251        169        20        77         9          5     1
 Las Vegas, NV
 (North)                  217        175        24        42         6          0     0
 Albuquerque, NM          210        176        25        34         5          0     0

 Total                   1,849      1,301      109       520        39         28     2




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)      A-2
                                                                           Appendix B

        Field Offices with Highest Amount of
         Noncompliant Immediate Payments
                 (January 1, 1998 through December 31, 1999)


                                           Multiple     Exceeded       Total          Total
                            Nonmatch        Under                     Number         Payment
        Location            with SSR       30 Days      Monetary       of IPs        Amount
                                                         Limit
*San Francisco, CA
(Civic Center)                  367           188           20          575         $ 228,215
*Sacramento, CA
(Downtown)                      414           179            3          596           217,580
Sacramento, CA
(South)                         253           111            5          369           151,591
Riverside, CA                   243            84           26          353           144,399
Inglewood, CA                   204           132           11          347           141,074
Sacramento, CA
(North)                         272            61           10          343           140,965
Hollywood, CA                   183           101            4          288           120,359
San Bernardino, CA              164           117           13          294           113,199
Modesto, CA                     131            27           67          225           107,293
*Colorado Springs, CO           169            77            5          251            98,664
*Las Vegas, NV (North)          175            42            -          217            83,527
Las Vegas, NV                   155            55            -          210            82,471
*Albuquerque, NM                176            34            -          210            82,133
Phoenix, AZ                     156            57            3          216            81,509
Richmond, CA                    110            91            1          202            79,317

TOTAL                         3,172        1,356          168         4,696         $1,872,296

*Note: This office was included in our sample review.




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)
                                                                           Appendix C

Agency Comments




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)
                                         SOCIAL SECURITY

MEMORANDUM                                                                      30154-24-631



Date:      August 21, 2002                                                       Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General
From:      Larry Dye /s/
           Chief of Staff
Subject:   Office of the Inspector General Draft Report, “Review of Internal Controls for the Supplemental
           Security Income Immediate Payment Process” (A-05-00-10045)—INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the report content and
           recommendations are attached. Staff questions can be referred to Odessa J. Woods on extension
           50378.

           Attachment:
           Proposed Comments




           Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)           C-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, "CONTROLS
FOR THE SUPPLEMENTAL SECURITY INCOME IMMEDIATE PAYMENT
PROCESS" (A-05-00-10045)

Recommendation 1

Activate two codes on the SSR to separately identify and account for SSI IPs and EAPs.

SSA Comment

We agree with the need to activate two codes on the SSR to separately identify and account for
Supplemental Security Income (SSI) immediate payments (IP) and emergency advance payments
(EAP). This enhancement will be incorporated into the system when IPs and EAPs are moved
into the payment history segment of the Supplemental Security Record (SSR)—see response to
Recommendation 2.

Recommendation 2

Integrate the TPD system with the SSR so IPs can automatically be added to both systems on one
input.

SSA Comment

We agree, and on July 20, 2002, implemented new emergency advance payment (EAP)/IP
screens--the first step in providing an interface between the SSR and the Third-Party Payment
System (TPPS), formerly the Third-Party Draft System (TPD). In April 2003, we will
implement TPPS Release 3.0 to provide a centralized database and eliminate 1,500 local
databases. The actual integration of TPPS with the programmatic systems (title II and title XVI)
will occur with TPPS Release 3.1, expected in October 2003. With TPPS Release 3.1, IPs and
EAPs must be entered into the programmatic system. Once entered and approved, the data will
be sent to TPPS. The cashier will then use TPPS to process the draft.

Recommendation 2a

In the interim, emphasize the need to verify that IPs are promptly recorded on the SSR and
recovery actions are taken as part of field office (FO) monthly TPD accountability reports and
managers’ annual audits.

SSA Comment

We agree. On August 12, 2002, we released a reminder emphasizing the need to verify that IPs
are promptly recorded on the SSR and that recovery actions are taken as part of the FO monthly
TPD accountability reports and managers’ annual audits.




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)            C-2
Recommendation 2b

In the interim, perform computerized analyses as an additional control to identify IPs on the TPD
database for which no payments were established on the SSR and send listings to FOs to resolve
the discrepancies.

We agree with the intent of this recommendation, but not the proposed action. The current
version of TPPS allows cashiers to print a listing of all EAPs/IPs based on a date range (they use
the database query function and select EAPs/IPs). In addition, on the TPPS' Accountability
Report, the approving official and the cashier must sign and date the following certifications:

       Approving Official's Certification

       I hearby confirm authorization of these cashier and financial transactions and certify,
       where applicable, that the goods/services were received and the program payments have
       been entered into the appropriate SSR or MBR system.

       Cashier's certification

       I certify that the disbursements I claimed herein are proper and correct and that the status
       of the funds for which I am accountable is as stated above and the program payments
       have been entered into the appropriate SSR or MBR system.

We believe this is an appropriate control for the interim period. Our primary goal is to integrate
TPPS with the programmatic systems, and we do not want to negatively impact implementation
of TPPS Releases 3.0 or 3.1 by diverting resources to provide this additional listing.

Recommendation 3

Evaluate existing policy to determine if revisions should be made to allow for waivers of the
30-day interval requirement for disbursing IPs.

SSA Comment
We agree, and will evaluate the policy that permits one IP in a 30-day period to determine if the
30-day requirement should be waived. This evaluation and any corrective action will be
completed in FY 2003.




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)               C-3
                                                                           Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
       William Fernandez, Director, Western Audit Division, (510) 970-1739

       Teresa S. Williams, Deputy Director, (312) 353-0331

Acknowledgments
In addition to those named above:

       Tony Lesniak, Auditor

       Sherman Doss, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-05-00-10045.




Review of Internal Controls for the SSI Immediate Payment Process (A-05-00-10045)
                          DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                             1
Management Analysis and Audit Program Support Staff, OFAM                  10
Inspector General                                                           1
Assistant Inspector General for Investigations                              1
Assistant Inspector General for Executive Operations                        3
Assistant Inspector General for Audit                                       1
Deputy Assistant Inspector General for Audit                                1
 Director, Data Analysis and Technology Audit Division                          1
 Director, Financial Audit Division                                         1
 Director, Southern Audit Division                                          1
 Director, Western Audit Division                                           1
 Director, Northern Audit Division                                          1
 Director, General Management Audit Division                                1
Team Leaders                                                               25
Income Maintenance Branch, Office of Management and Budget                  1
Chairman, Committee on Ways and Means                                       1
Ranking Minority Member, Committee on Ways and Means                        1
Chief of Staff, Committee on Ways and Means                                 1
Chairman, Subcommittee on Social Security                                   2
Ranking Minority Member, Subcommittee on Social Security                    1
Majority Staff Director, Subcommittee on Social Security                    2
Minority Staff Director, Subcommittee on Social Security                    2
Chairman, Subcommittee on Human Resources                                   1
Ranking Minority Member, Subcommittee on Human Resources                    1
Chairman, Committee on Budget, House of Representatives                     1
Ranking Minority Member, Committee on Budget, House of Representatives      1
Chairman, Committee on Government Reform and Oversight                      1
Ranking Minority Member, Committee on Government Reform and Oversight       1
Chairman, Committee on Governmental Affairs                                 1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                        1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        96
                   Overview of the Office of the Inspector General

                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.


                                 Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and
the coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic planning
function and the development and implementation of performance measures required by the
Government Performance and Results Act. OEO is also responsible for performing internal
reviews to ensure that OIG offices nationwide hold themselves to the same rigorous standards
that we expect from SSA, as well as conducting investigations of OIG employees, when
necessary. Finally, OEO administers OIG’s public affairs, media, and interagency activities,
coordinates responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
